APPENDIX

1a
APPENDIX A
_________
STATE OF MINNESOTA
IN SUPREME COURT
_________
A17-1182
_________
Court of Appeals
McKeig, J.
Dissenting, Anderson, J., Gildea, C.J.
_________
ADAM BANDEMER,
Respondent,
vs.
FORD MOTOR COMPANY,
Appellant,
ERIC HANSON, ET AL.,
Defendants.

_________
Filed: July 31, 2019
Office of Appellate Courts
_________
Michael R. Carey, Bowman
Minneapolis, Minnesota; and

&

Brooke

LLP,

Sean Marotta, Hogan Lovells US LLP, Washington,
D.C., for appellant.
Kyle W. Farrar, Mark Bankston, Kaster, Lynch,
Farrar & Ball, LLP, Houston, Texas; and

2a
Steven D. Lastovich, Steven Lastovich Ltd., Baxter,
Minnesota, for respondent.
Andrew J. Pincus, Archis A. Parasharami, Mayer
Brown LLP, Washington, D.C., and William Michael,
Jr., Mayer Brown LLP, Chicago, Illinois, for amicus
curiae The Chamber of Commerce of the United
States of America.
_________
SYLLABUS
The exercise of specific personal jurisdiction by a
Minnesota court is proper when: (1) the defendant
established minimum contacts in the forum by
selling a particular type of vehicle in Minnesota,
directing advertising and marketing activities at
Minnesota, and collecting data relevant to redesigns
and repairs from dealerships in Minnesota; (2) that
type of vehicle was in an accident in Minnesota; and
(3) the plaintiff and other defendant-driver are
Minnesota residents—even though the individual
vehicle was designed, manufactured, and first sold
by the defendant outside of Minnesota.
Affirmed.
OPINION
MCKEIG, Justice.
Appellant Ford Motor Company (Ford) appeals
from a court of appeals decision affirming a district
court’s exercise of specific personal jurisdiction over
Ford in a products liability case. Central to the
litigation is a Ford vehicle that was involved in a car
crash in which the passenger was seriously injured
and an airbag in the vehicle allegedly failed to

3a
deploy. Ford argues that its contacts with Minnesota
were not sufficiently connected to the current
litigation because the car at issue was designed,
manufactured, and sold outside of Minnesota.
Because the claims here arise out of or relate to
Ford’s contacts with Minnesota, we affirm the court
of appeals.
FACTS
In January of 2015, Respondent Adam Bandemer,
a Minnesota resident, was a passenger in a 1994
Ford Crown Victoria driven on a Minnesota road by
defendant Eric Hanson, a Minnesota resident.
Hanson rear-ended a Minnesota county snow plow,
and the car ended up in a ditch. Minnesota county
law enforcement responded to the crash, and
Bandemer alleges that he suffered a severe brain
injury as a result of the passenger-side airbag not
deploying.
He was treated for his injuries by
Minnesota doctors in Minnesota. Bandemer alleges
that the airbag failed to deploy because of a defect,
and that the accident was caused by Hanson’s
negligence. He filed a complaint in district court
alleging products liability, negligence, and breach of
warranty claims against Ford and negligence claims
against Hanson and his father, who owned the car.
Ford moved to dismiss Bandemer’s claims for lack
of personal jurisdiction.
See Minn. R. Civ. P.
12.02(b). Ford does not dispute the quantity and
quality of its contacts with Minnesota, nor does it
dispute the reasonableness of personal jurisdiction
under the circumstances. But it argues that, because
the Ford car involved in the accident was not
designed, manufactured, or originally sold in

4a
Minnesota, Ford cannot be subject to personal
jurisdiction in Minnesota on this claim.
Ford’s contacts include sales of more than 2,000
1994 Crown Victoria cars—and, more recently, about
200,000 vehicles of all kinds in 2013, 2014, and
2015—to dealerships in Minnesota.
Ford’s
advertising
contacts
include
direct
mail
advertisements to Minnesotans and national
advertising campaigns that reach the Minnesota
market. Ford’s marketing contacts include a 2016
“Ford Experience Tour” in Minnesota, a 1966 Ford
Mustang built as a model car for the Minnesota
Vikings, a “Ford Driving Skills for Life Free National
Teen Driver Training Camp” in Minnesota, and
sponsorship of multiple athletic events in Minnesota.
Ford also collects data from its dealerships in
Minnesota for use in redesigns and repairs. Finally,
Ford has employees, certified mechanics, franchises,
and real property, as well as an agent for accepting
service, in Minnesota.1

1

Bandemer also argued below that Ford consented to
personal jurisdiction by consenting to receive service of process
through an agent in Minnesota. See Minn. Stat. § 303.06 (2018)
(requiring that a foreign corporation “irrevocably consent[] to
the service of process upon it”); Minn. Stat. § 303.13, subd. 1(1)
(2018) (“A foreign corporation shall be subject to service of
process . . . by service on its registered agent . . . .”). Consentbased jurisdiction exists independently of specific personal
jurisdiction, and federal courts have held that “[o]ne of the most
solidly established ways of giving such consent is to designate
an agent for service of process within the State.” Knowlton v.
Allied Van Lines, Inc., 900 F.2d 1196, 1199 (8th Cir. 1990). The
court of appeals did not reach this question because it held that
the exercise of jurisdiction was valid under the doctrine of
specific personal jurisdiction. Because it was not decided by the

5a
The district court held that the exercise of
jurisdiction over Ford was proper, and Ford
appealed.
The court of appeals, applying our
decision in Rilley v. MoneyMutual, LLC, 884 N.W.2d
321 (Minn. 2016), cert. denied, ___ U.S. ___,
137 S. Ct. 1331 (2017), held that the district court
did not err in denying Ford’s motion to dismiss for
lack of personal jurisdiction because Ford’s
marketing contacts with Minnesota “established a
‘substantial connection between the defendant, the
forum, and the litigation, such that [it] purposefully
availed [itself] of the forum’ ” and those contacts
“sufficiently relate[] to the cause of action . . . .”
Bandemer v. Ford Motor Co., 913 N.W.2d 710, 715
(Minn. App. 2018) (quoting Rilley, 884 N.W.2d at
332). The court of appeals rejected Ford’s arguments
that the Supreme Court’s decisions in Walden v.
Fiore, 571 U.S. 277 (2014), and Bristol-Myers Squibb
Co. v. Superior Court of California, ___ U.S. ___,
137 S. Ct. 1773 (2017), require a more direct
connection between and among the defendant, the
forum, and the litigation than the standard
articulated by this court in Rilley. 913 N.W.2d at
715–16. This appeal followed.
ANALYSIS
“Whether personal jurisdiction exists is a question
of law, which we review de novo.” Rilley, 884 N.W.2d
at 326 (citation omitted) (internal quotation marks
omitted). After a defendant challenges a court’s
exercise of personal jurisdiction, the plaintiff must
make a prima facie showing that personal
court of appeals in the first instance, we similarly decline to
address the question of consent-based jurisdiction in this case.

6a
jurisdiction is proper. Juelich v. Yamazaki Mazak
Optonics Corp., 682 N.W.2d 565, 569–70 (Minn.
2004). When reviewing a motion to dismiss for lack
of personal jurisdiction, we accept all of the factual
allegations in the complaint and supporting
affidavits as true. Rilley, 884 N.W.2d at 326. In a
close case, we resolve any doubt in favor of retaining
jurisdiction. Hardrives, Inc. v. City of LaCrosse,
240 N.W.2d 814, 818 (Minn. 1976).
Minnesota’s long-arm statute prevents personal
jurisdiction over a nonresident defendant if it would
“violate fairness and substantial justice.” Minn.
Stat. § 543.19, subd. 1(4)(ii) (2018). We may “simply
apply the federal case law” because Minnesota’s longarm statute “extend[s] the personal jurisdiction of
Minnesota courts as far as the Due Process Clause of
the federal constitution allows.” Valspar Corp. v.
Lukken Color Corp., 495 N.W.2d 408, 410–11 (Minn.
1992). The Due Process Clause of the Fourteenth
Amendment limits the ability of a state to exercise
its coercive power by asserting jurisdiction over nonresident defendants. Bristol-Myers Squibb Co., ___
U.S. at ___, 137 S. Ct. at 1779. A state may not
exercise personal jurisdiction unless the defendant
has “minimum contacts” with the state and
maintaining the lawsuit “does not offend traditional
notions of fair play and substantial justice.” Int’l
Shoe Co. v. Washington, 326 U.S. 310, 316 (1945)
(citation omitted) (internal quotation marks
omitted).
We analyze five factors to determine whether the
exercise of personal jurisdiction is consistent with
federal due process: “ ‘(1) the quantity of contacts
with the forum state; (2) the nature and quality of

7a
those contacts; (3) the connection of the cause of
action with these contacts; (4) the interest of the
state providing a forum; and (5) the convenience of
the parties.’ ” Rilley, 884 N.W.2d at 328 (quoting
Juelich, 682 N.W.2d at 570). This five-factor test is a
means for evaluating the same key principles of
personal jurisdiction established by the Supreme
Court—reasonableness in light of traditional notions
of fair play and substantial justice. See K-V Pharm.
Co. v. J. Uriach & CIA, S.A., 648 F.3d 588, 592 (8th
Cir. 2011); Dent-Air, Inc. v. Beech Mountain Air
Serv., Inc., 332 N.W.2d 904, 907 (Minn. 1983). The
first three factors determine whether Ford has
sufficient “minimum contacts” with Minnesota, and
the last two factors determine whether jurisdiction is
otherwise “reasonable” under concepts of “fair play
and substantial justice.” Juelich, 682 N.W.2d at 570.
I.
We will first address factors one through three,
which determine whether minimum contacts are
present.
A defendant has sufficient “minimum
contacts” to support personal jurisdiction if the
defendant “purposefully avails itself” of the
privileges, benefits, and protections of the forum
state, such that the defendant “should reasonably
anticipate being haled into court there.” Burger King
Corp. v. Rudzewicz, 471 U.S. 462, 474–75 (1985)
(quoting Hanson v. Denckla, 357 U.S. 235, 253
(1958), and World-Wide Volkswagen Corp. v.
Woodson, 444 U.S. 286, 297 (1980)). “In determining
whether a defendant has sufficient ‘minimum
contacts,’ we consider the contacts alleged by the
plaintiff in the aggregate and not individually, by
looking at the totality of the circumstances.” Rilley,

8a
884 N.W.2d at 337. The forum State “ ‘does not
exceed its powers under the Due Process Clause if it
asserts personal jurisdiction over a corporation that
delivers its products into the stream of commerce
with the expectation that they will be purchased by
consumers in the forum State’ and those products
subsequently injure forum consumers.” Burger King
Corp., 471 U.S. at 473 (quoting World-Wide
Volkswagen Corp., 444 U.S. at 297–98).
The “minimum contacts” inquiry necessary to
support specific 2 personal jurisdiction over the
defendant focuses on “the relationship among the
defendant, the forum, and the litigation.” Walden,
571 U.S. at 284 (citation omitted) (internal quotation
marks omitted).
The “defendant’s suit-related
conduct must create a substantial connection with
the forum State.” Id. Physical presence by the
defendant in the forum state is not required for
specific personal jurisdiction—rather, sufficient
minimum contacts may exist when an out-of-state
defendant “purposefully direct[s]” activities at the
forum state, and the litigation “arise[s] out of or
relate[s]” to those activities. Burger King Corp.,
471 U.S. at 472 (citation omitted) (internal quotation
marks omitted). This minimum-contacts inquiry
must “look[] to the defendant’s contacts with the
forum State itself” and not the defendant’s “random,
fortuitous, or attenuated” contacts with “persons
affiliated with the State” or “persons who reside
2

The parties agree that Minnesota may not exercise general
personal jurisdiction over Ford. Specific personal jurisdiction
exists if the litigation “arise[s] out of or relate[s]” to the
defendant’s contacts with the forum. Burger King Corp., 471
U.S. at 472, 473 n.15.

9a
there.” Walden, 571 U.S. at 285–86. Substantial
contacts with the forum do not compensate for a lack
of a connection “between the forum and the specific
claims at issue.” Bristol-Myers Squibb, ___ U.S. at
___, 137 S. Ct. at 1781.
A.
Although Ford does not contest the quality or
quantity of its contacts with Minnesota, a description
of those contacts is necessary for us to determine
“the relationship among the defendant, the forum,
and the litigation.” Walden, 571 U.S. at 284 (citation
omitted) (internal quotation marks omitted). “[I]t is
essential in each case that there be some act by
which the defendant purposefully avails itself of the
privilege of conducting activities within the forum
State . . . .” Hanson, 357 U.S. at 253. The court of
appeals held that Ford’s regional advertising and
marketing activities in Minnesota were contacts that
were not “random, fortuitous, or attenuated” and
through those contacts, Ford “purposefully availed
[itself] of the forum . . . .” Bandemer, 913 N.W.2d at
715 (citation omitted) (internal quotation marks
omitted). We agree.
Ford’s data collection, marketing, and advertising
in Minnesota demonstrate that it delivered its
product into the stream of commerce with the
intention that Minnesotans purchase such vehicles.
Ford collected data on how its vehicles perform
through Ford dealerships in Minnesota and used
that data to inform improvements to its designs and
to train mechanics.3 Ford has sold more than 2,000
3

The dissent disputes this characterization of Ford’s data
collection. Ford describes its data collection as: “Ford’s design

10a
1994 Crown Victoria vehicles in Minnesota. It sold
about 200,000 vehicles of all types in Minnesota
during a three-year period. It conducted direct-mail
advertising in Minnesota and directed marketing at
the state. This suit’s connection with Minnesota is
beyond “the mere ‘unilateral activity of those who
claim some relationship with a nonresident
defendant,’ ” World-Wide Volkswagen Corp., 444
U.S. at 298 (quoting Hanson, 357 U.S. at 253);
rather, the connection is based on Ford’s own actions
in targeting Minnesota for sales of passenger
vehicles, including the type of vehicle at issue in this
case.
Therefore, the court of appeals did not err in
holding that the quality and quantity of Ford’s
contacts with Minnesota were sufficient to support
personal jurisdiction.
B.
The first two factors establish that Ford has
purposely availed itself of the privileges, benefits,
and protections of the state of Minnesota. We turn to
center collects some performance data from dealers nationally
and Ford sometimes considers vehicle performance in the field
to inform its overall design decisions.” Ford further admitted
“that it receives information regarding vehicle performance
across the United States, including in Minnesota, and that
information may be used by Ford as it considers future
designs.” But, crucially, Ford’s use of the word “may” is not a
denial that it collects safety-related data in Minnesota, or that
its safety-related data is relevant to Bandemer’s causes of
action. At the motion-to-dismiss stage, we are required to
accept Bandemer’s allegations as true unless Ford’s discovery
responses directly contradict Bandemer’s claims. See Rilley,
884 N.W.2d at 336.

11a
the third factor in our personal jurisdiction inquiry:
the connection of the cause of action to Ford’s
contacts with the state. A corporation’s “single or
isolated items of activity in a state . . . are not
enough to subject it to suit on causes of action
unconnected with the activities there.” Int’l Shoe
Co., 326 U.S. at 317 (emphasis added) (citation
omitted).
The court of appeals relied in part on our decision
in Rilley to determine that there was an adequate
connection between Ford’s contacts with Minnesota
and the cause of action, so as to support personal
jurisdiction over Ford. Bandemer, 913 N.W.2d at
714–15. In Rilley, we noted disagreement among
courts about how to apply the connectedness factor,
distinguishing between a test that looks to whether
the plaintiff’s claim was “strictly caused by or arose
out of the defendant’s contacts” on the one hand, and
a test that looks to whether “the contacts are
substantially connected or related to the litigation”
on the other hand. 884 N.W.2d at 336 We observed
that although there was no evidence that certain ads
“actually caused any of the claims,” nevertheless the
ads were “sufficiently related to the claims of
respondents to survive a motion to dismiss,” id. at
337, because they were the “means by which” the
defendant, MoneyMutual, solicited Minnesota
residents to apply for an allegedly unlawful loan. Id.
at 336. We concluded that those ads were “a
relevant contact with the Minnesota forum for the
purpose of the minimum contacts analysis.” Id. at
337.
Ford urges us to change course and instead adopt a
“causal” standard for this prong, under which “the

12a
defendant’s contacts with Minnesota [must] have
caused the plaintiff’s claims” for personal jurisdiction
over the defendant to be proper. It argues that
Supreme Court jurisprudence consistently applies a
“giving rise to” standard, consistent with a
requirement of causation, and therefore, the
“relating to” standard that we applied in Rilley is
incorrect. It further argues that a causal standard is
clearer and easier to apply. Bandemer disputes
Ford’s characterization of Supreme Court precedent
and argues that eliminating the “relating to”
possibility would be a “radical” shift in specific
personal jurisdiction law. We agree with Bandemer.
First, Ford argues that our “related to” conclusion
in Rilley is dicta. It argues that we held that the
email contacts that MoneyMutual made with
Minnesota residents were sufficient by themselves to
satisfy the minimum contacts question. See Rilley,
884 N.W.2d at 337. If this assertion is true, Ford
reasons, then the ad analysis was not necessary to
the holding and is therefore dicta that may be
reconsidered without upsetting precedent. Even if
our articulation of a “relating to” standard in Rilley
is dicta, it is a correct application of Supreme Court
precedent.
The Supreme Court most recently addressed the
minimum contacts test in its Bristol-Myers Squibb
decision, which concerned whether California could
exercise personal jurisdiction over a pharmaceutical
company in a suit for injuries from medications sold
by the defendant. ___ U.S. at ___, 137 S. Ct. at 1777.
The Supreme Court held that California did not have
personal jurisdiction over the company regarding
claims by out-of-state (that is, out-of-California)

13a
plaintiffs because no connection existed between
those out-of-state plaintiffs’ claims and the
defendant’s contacts with California. Bristol-Myers
Squibb, ___ U.S. at ___, 137 S. Ct. at 1781–82. The
Court determined that sales to California residents
of the drug at issue and research the defendant
conducted in California on an unrelated drug were
not sufficiently connected to the out-of-state
plaintiffs’ claims because “[t]he relevant plaintiffs
are not California residents and do not claim to have
suffered harm in that State” and “all the conduct
giving rise to the nonresidents’ claims occurred
elsewhere.” Id. at ___, 137 S. Ct. at 1781–82.
Ford argues that Bristol-Myers Squibb shows that
the Supreme Court applies a “giving rise to”
standard in place of the “arising out of or related to”
standard. Ford’s reading of Bristol-Myers Squibb is
unpersuasive for two reasons. First, the Court in
Bristol-Myers Squibb stated that “[o]ur settled
principles regarding specific jurisdiction control this
case,” ___ U.S. at ___, 137 S. Ct. at 1781, which
signals that the Court did not intend to depart from
the “arising out of or relating to” standard it had
previously applied in many cases. See, e.g., Daimler
AG v. Bauman, 571 U.S. 117, 127 (2014); Burger
King Corp., 471 U.S. at 472–73; Helicopteros
Nacionales de Colombia, S.A. v. Hall, 466 U.S. 408,
414–16 (1984). Indeed, the Court repeated the
“arising out of or related to” standard in its opinion,
which is hardly a repudiation of that standard.
Bristol-Myers Squibb, ___ U.S. at ___, 137 S. Ct. at
1780. Second, unlike here, the Court determined
there were no connections between the alleged injury
to the out-of-state plaintiffs and the forum. Id. at
___, 137 S. Ct. at 1781. It is not likely that the Court

14a
applied a new, narrower standard in a case where
the plaintiffs could not even meet the established,
broader standard.
Ford’s next argument, that before Bristol-Myers
Squibb the Court consistently applied a causal
standard, is also unpersuasive. In the seminal case
of International Shoe, for example, the Court
described the connection standard. 326 U.S. at 319.
It stated that “to the extent that a corporation
exercises the privilege of conducting activities within
a state, it enjoys the benefits and protection of the
laws of that state.” Id. Those privileges come with
obligations as well, and “so far as those obligations
arise out of or are connected with the activities
within the state, a procedure which requires the
corporation to respond to a suit brought to enforce
them can, in most instances, hardly be said to be
undue.” Id. (emphasis added). The Court then held
that the taxation obligation that the State of
Washington sought to enforce was sufficiently
connected to International Shoe’s presence in the
state for personal jurisdiction to exist. Id. at 320.
More recently, in World-Wide Volkswagen, as in
the current case, the plaintiffs alleged that a defect
in an automobile led to severe injuries following an
accident. 444 U.S. at 288. The car was sold in New
York, and the accident happened in Oklahoma. Id.
The Court rejected the proposition that the vehicle’s
mobility made it foreseeable that it might travel to
Oklahoma,
sufficing
to
establish
personal
jurisdiction in that state over the vehicle’s
distributor and retail dealer. Id. at 295. But before
announcing its rejection of that proposition, the

15a
Court emphatically described the defendants’
complete lack of contacts with Oklahoma:
Petitioners carry on no activity whatsoever in
Oklahoma. They close no sales and perform
no services there. They avail themselves of
none of the privileges and benefits of
Oklahoma law. They solicit no business there
either through salespersons or through
advertising reasonably calculated to reach the
State. Nor does the record show that they
regularly sell cars at wholesale or retail to
Oklahoma customers or residents or that they
indirectly, through others, serve or seek to
serve the Oklahoma market.
Id. Were we to adopt Ford’s position here, we would
be reading out of the World-Wide Volkswagen
decision everything the majority wrote about the
defendant’s lack of contacts with Oklahoma. If the
particular vehicle was not designed, manufactured,
or sold in Oklahoma, on Ford’s theory, then it would
not have mattered if the defendant sold millions of
cars in Oklahoma. We decline to adopt a rule that
would render irrelevant so much of the Court’s
reasoning.
The Court in Bristol-Myers Squibb stated it was
not departing from settled principles of specific
personal jurisdiction. We believe it. Therefore, we
decline to adopt Ford’s causal standard.
C.
Ford also argues that its contacts with Minnesota
do not meet the “relating to” standard. It argues
that “[n]o part of Ford’s allegedly tortious conduct—

16a
designing, manufacturing, warrantying, or warning
about the 1994 Crown Victoria—occurred in
Minnesota.” Those contacts are only those that cause
the claim, though. As we explained above, the
requirements of due process are met so long as Ford’s
contacts relate to the claim. Rilley, 884 N.W.2d at
337.
This is not a case where a 1994 Ford Grand
Victoria fortuitously ended up in Minnesota. Ford
has sold thousands of such Crown Victoria cars and
hundreds of thousands of other types of cars to
dealerships in Minnesota. 4 Because the Crown
Victoria is the very type of car that Bandemer alleges
was defective, Ford’s sales to the Minnesota
dealerships are connected to the claims at issue here.
Bandemer’s claims are about the design of the Crown
4

The dissent treats the thousands of cars that Ford has sold
into Minnesota as irrelevant, because “[e]ven regularly
occurring sales of a product in a State do not justify the exercise
of jurisdiction over a claim unrelated to those sales.” (quoting
Goodyear Dunlop Tires Operations, S.A. v. Brown, 564 U.S. 915,
930 n.6 (2011)). In our view, the dissent relies too heavily on
Goodyear, a case in which the Court considered general
jurisdiction. In Goodyear, the issue was whether foreign
subsidiaries were subject to general personal jurisdiction in
North Carolina. 564 U.S. at 919–20. The quoted footnote was
the Court’s response to an allegation that the foreign
subsidiaries sought to sell their tires in North Carolina,
referring back to another section of the opinion in which it
rejected “the sprawling view of general jurisdiction urged by
respondents . . . [that] any substantial manufacturer or seller of
goods would be amenable to suit, on any claim for relief,
wherever its products are distributed.” Id. at 929 (emphasis
added). Regarding specific personal jurisdiction, however, the
Court noted that the “[f]low of a manufacturer’s products into
the forum . . . may bolster an affiliation germane to specific
jurisdiction.” Id. at 927.

17a
Victoria and therefore his claims are about more
than one specific car. Ford also collected data on
how its cars performed through Ford dealerships in
Minnesota and used that data to inform
improvements to its designs and to train mechanics.
Part of Bandemer’s claim is that Ford failed to detect
a defect in its vehicle design. Those activities, and
the failure to detect, likewise relate to the claims
here. Ford directs marketing and advertisements
directly to Minnesotans, with the hope that they will
purchase and drive more Ford vehicles.
A
Minnesotan bought a Ford vehicle, and it is alleged
that the vehicle did not live up to Ford’s safety
claims. “In determining whether a defendant has
sufficient ‘minimum contacts,’ we consider the
contacts alleged by the plaintiff in the aggregate and
not individually, by looking at the totality of the
circumstances.” Rilley, 884 N.W.2d at 337.
Beyond Ford’s sales, marketing, and research
contacts with Minnesota, there is an “ ‘affiliation
between the forum and the underlying controversy,
principally, [an] activity or an occurrence that takes
place in the forum State.’ ” Bristol-Myers Squibb,
___ U.S. at ___, 137 S. Ct. at 1781 (quoting Goodyear,
564 U.S. at 919). In Bristol-Myers Squibb, the Court
considered the claims of non-forum residents who did
not allege that any relevant facts relating to their
claim occurred in the forum, and concluded that,
absent such allegations, personal jurisdiction was
lacking. Id. at ___, 137 S. Ct. at 1782. In the current
case, by contrast, the car crash and the injury to the
plaintiff occurred in Minnesota, the car was
registered in Minnesota, the plaintiff and the driving
defendant are Minnesota residents, and the plaintiff
was treated for the injuries in Minnesota.

18a
For these reasons, this case meets the requirement
from Bristol-Myers Squibb that an “activity or an
occurrence . . . take[] place in” Minnesota.
The
dissent disputes the relevance of a plaintiff’s contacts
with the forum. In fact, our analysis tracks the
Court’s analysis in Bristol-Myers Squibb. ___ U.S. at
___, 137 S. Ct at 1781. After rejecting the Supreme
Court of California’s “sliding scale” approach as a
“loose and spurious form of general jurisdiction,” the
Court described the nonresident plaintiffs’ lack of
connection with the forum. Id. It specifically
mentioned the lack of injury to these plaintiffs in
California, and concluded that “a connection between
the forum and the specific claims at issue” was
“missing.” Id. The Court’s discussion of the lack of
plaintiffs’ contacts with the forum demonstrates that
the plaintiff’s contacts are relevant to the analysis of
the “affiliation between the forum and the
underlying controversy . . . .” Id. (citation omitted)
(internal quotation marks omitted).
Because there is a substantial connection between
the defendant Ford, the forum Minnesota, and the
claims brought by Bandemer, Ford’s contacts with
Minnesota suffice to establish specific personal
jurisdiction over the company regarding Bandemer’s
claims.
II.
If sufficient “minimum contacts” are established,
we must consider the “reasonableness” of personal
jurisdiction according to traditional notions of “fair
play and substantial justice,” weighing factors such
as the convenience of the parties and the interests of
the forum state in adjudicating the dispute. Burger

19a
King Corp., 471 U.S. at 476–77 (citing World-Wide
Volkswagen Corp., 444 U.S. at 292). To establish
specific personal jurisdiction, “the facts of each case
must [always] be weighed in determining whether
personal jurisdiction would comport with fair play
and substantial justice.” Id. at 485–86 (citation
omitted) (internal quotation marks omitted). We
examine these questions through factors four and
five of our test: Minnesota’s interest in the litigation,
and the convenience of the parties. Rilley, 884
N.W.2d at 338.
Ford concedes that these factors are established,
and therefore support an exercise of jurisdiction. We
agree.
Minnesota has a strong interest in
adjudicating this dispute regarding an accident
involving a Minnesota county vehicle that occurred
on a Minnesota road, between a Minnesota resident
as plaintiff and both Ford—a corporation that does
business
regularly
in
Minnesota—and
two
Minnesota residents as defendants. Minnesota has a
vital interest in protecting the safety and rights of its
residents, in regulating the safety of its roadways,
and in safeguarding Ford’s co-defendants’ rights.
Minnesota’s interest is expressed in its state
constitution, which provides: “Every person is
entitled to a certain remedy in the laws for all
injuries or wrongs which he may receive to his
person, property or character, and to obtain justice
freely and without purchase, completely and without
denial, promptly and without delay, conformable to
the laws.” Minn. Const. art. I, § 8. If complete,
prompt, and economical justice are the goals,
Minnesota is also the most convenient forum, as the
site of the accident and treatment for the injury.

20a
Plainly, Minnesota has an interest in adjudicating
this dispute and is the most convenient place to do it.
Here, we hold that Ford’s contacts alone are
sufficient to support specific personal jurisdiction
and the reasonableness factors, which heavily favor
jurisdiction, do not detract from the reasonableness
of asserting jurisdiction over Ford here.
After
examining “the relationship among the defendant,
the forum, and the litigation,” we hold that
Minnesota’s exercise of specific personal jurisdiction
over Ford in this case does not violate due process.
Walden, 571 U.S. at 287 (citation omitted) (internal
quotation marks omitted).
CONCLUSION
For the foregoing reasons, we affirm the decision of
the court of appeals.
Affirmed.

21a
DISSENT
ANDERSON, Justice (dissenting).
The Supreme Court of the United States has been
emphatic: “In order for a state court to exercise
specific jurisdiction, ‘the suit’ must ‘aris[e] out of or
relat[e] to the defendant’s contacts with the forum.’ ”
Bristol-Myers Squibb Co. v. Super. Ct. of Cal.,
___ U.S. ___, ___, 137 S. Ct. 1773, 1780 (2017)
(citation omitted).
Appellant Adam Bandemer brought this litigation
against respondent Ford Motor Company after he
was injured while riding as a passenger in a Ford
vehicle.
But Ford neither designed nor
manufactured the car in Minnesota. Nor did it sell
or otherwise cause that vehicle to enter into
Minnesota.
Because all of Ford’s Minnesota
contacts, such as its data collection and marketing
efforts, are unrelated to Bandemer’s claims, the
reasoning of the court here is inconsistent with
controlling Supreme Court jurisprudence, and I
respectfully dissent.
I.
Personal jurisdiction refers to “the court’s power to
exercise control over the parties” to litigation. Leroy
v. Great W. United Corp., 443 U.S. 173, 180 (1979);
see also In re Melgaard’s Will, 274 N.W. 641, 645
(Minn. 1937) (“[W]hom [a court] may bind by order or
judgment, depends on . . . its jurisdiction of the
parties.”). Under the Due Process Clause of the
Fourteenth Amendment to the United States
Constitution, a state court may not determine the
rights and obligations of parties over whom it lacks

22a
personal jurisdiction. See Ins. Corp. of Ir., Ltd. v.
Compagnie des Bauxites de Guinee, 456 U.S. 694,
702 (1982) (“The requirement that a court have
personal jurisdiction flows . . . from the Due Process
Clause.”).
Minnesota’s long-arm statute, Minn. Stat. § 543.19
(2018), “extend[s] the personal jurisdiction of
Minnesota courts as far as the Due Process Clause of
the federal constitution allows.” Valspar Corp. v.
Lukken Color Corp., 495 N.W.2d 408, 410 (Minn.
1992). Accordingly, whether Minn. Stat. § 543.19
confers jurisdiction that is consistent with due
process, such that Ford can be required to defend
Bandemer’s claims in Minnesota, “is a federal
question, ruled by federal decisions.” Atkinson v.
U.S. Operating Co., 152 N.W. 410, 410 (Minn. 1915).
We “may simply apply the federal case law.” Valspar
Corp., 495 N.W.2d at 411.
We must begin with International Shoe Co. v.
Washington, 326 U.S. 310 (1945), “[t]he polestar of
modern personal jurisdiction,” Valspar Corp.,
495 N.W.2d at 411. “[A]ll assertions of state-court
jurisdiction must be evaluated according to the
standards set forth in International Shoe and its
progeny.” Shaffer v. Heitner, 433 U.S. 186, 212
(1977); see also Goodyear Dunlop Tires Operations v.
Brown, 564 U.S. 915, 923 (2011) (acknowledging that
“[t]he canonical opinion in this area remains
International Shoe”).
Under International Shoe, a state court may
constitutionally exercise personal jurisdiction over a
defendant, even if the defendant is “not present
within the territory of the forum,” so long as the

23a
defendant has “minimum contacts with it such that
the maintenance of the suit does not offend
‘traditional notions of fair play and substantial
justice.’ ” 326 U.S. at 316 (citations omitted). PostInternational Shoe Supreme Court precedent further
distinguishes between two types of “minimum
contacts,” as well as two resulting categories of
personal jurisdiction.
First, if a defendant’s contacts with the state in
which suit is brought “are so constant and pervasive
‘as to render [it] essentially at home in the forum
State,’ ” then that forum may exercise “general”
personal jurisdiction over the defendant. Daimler
AG v. Bauman, 571 U.S. 117, 122 (2014) (citation
omitted). Those “constant and pervasive” contacts,
id., need not be related to the litigation, Walden v.
Fiore, 571 U.S. 277, 283 n.6 (2014); see also Burger
King Corp. v. Rudzewicz, 471 U.S. 462, 473 n.15
(1985). General personal jurisdiction is thus “allpurpose,” Daimler, 571 U.S. at 122, and “disputeblind,” BNSF Ry. Co. v. Tyrrell, ___ U.S. ___, ___,
137 S. Ct. 1549, 1559 n.4 (2017).
Bandemer
stipulated that Ford is not amenable to general
personal jurisdiction in Minnesota. See Bandemer v.
Ford Motor Co., 913 N.W.2d 710, 713 n.1 (Minn. App.
2018).
The second type of permissible personal
jurisdiction is “specific” or “conduct-linked.”
Daimler, 571 U.S. at 122. “For specific jurisdiction, a
defendant’s general connections with the forum are
not enough.” Bristol-Myers Squibb, ___ U.S. at ___,
137 S. Ct. at 1781. A state may assert specific
personal jurisdiction only “[w]hen a controversy is
related to or ‘arises out of’ a defendant’s contacts

24a
with the forum.”
Helicopteros Nacionales de
Colombia v. Hall, 466 U.S. 408, 414 & n.8 (1984)
(explaining that the “essential foundation” of
personal jurisdiction is “a ‘relationship among the
defendant, the forum, and the litigation’ “ (quoting
Shaffer, 433 U.S. at 204)); see also Walden, 571 U.S.
at 284 (“For a State to exercise jurisdiction
consistent with due process, the defendant’s suitrelated conduct must create a substantial connection
with the forum State.”); Goodyear, 564 U.S. at 919
(“In contrast to general, all-purpose jurisdiction,
specific jurisdiction is confined to adjudication of
‘issues deriving from, or connected with, the very
controversy that establishes jurisdiction.’ ” (citation
omitted)). 1
As the Supreme Court explained
recently, “specific jurisdiction is lacking regardless of
the extent of a defendant’s unconnected activities in
the State” when there is no connection between the
forum and the “underlying controversy.” BristolMyers Squibb, ___ U.S. at ___, 137 S. Ct. at 1781
(quoting Goodyear, 564 U.S. at 919); see also
Goodyear, 564 U.S. at 931 n.6 (“[E]ven regularly
occurring sales of a product in a State do not justify
the exercise of jurisdiction over a claim unrelated to
those sales.”).

1

At oral argument, Bandemer asserted that in-state, causeof-action-related activity by Ford is not required.
This
argument lacks merit. Bandemer’s two authorities for this
proposition, the dissent in Bristol-Myers Squibb, ___ U.S. at ___
n.3, 137 S. Ct. at 1788 n.3 (Sotomayor, J., dissenting), and a
decision from the West Virginia Supreme Court, State ex rel.
Ford Motor Co. v. McGraw, 788 S.E.2d 319, 343 (W. Va. 2016),
are not controlling.

25a
II.
With this overview of the controlling legal
principles in mind, I now turn to the specific
allegations of Bandemer’s complaint and the facts
available in the record from the parties’ jurisdiction
discovery.2
Bandemer’s complaint against Ford asserts product
liability, negligence, and breach-of-warranty claims
based on a 2015 incident.
Bandemer was a
passenger in a 1994 Ford Crown Victoria driven by
his friend, apparently on their way to go ice fishing,
when the driver collided with a snow plow. The
airbags of the vehicle did not deploy and, as a result,
Bandemer suffered a severe brain injury.
The Crown Victoria was designed in Michigan;
assembled in 1993 in Ontario, Canada; and sold in
Bismarck, North Dakota in 1994. The vehicle was
first registered in Minnesota 17 years later, in 2011,
by its fourth owner. The father of Bandemer’s
friend, the fifth owner of the 1994 Crown Victoria,
registered the vehicle in Minnesota in 2013.
Bandemer’s strict liability claim alleges that Ford
“designed, manufactured, advertised, marketed,
tested, inspected, furnished, sold and distributed”
the 1994 Crown Victoria and placed it into the
stream of commerce in a “defective and unreasonably
2

As the court states, at this stage of the proceeding, we must
accept Bandemer’s allegations as true. Juelich v. Yamazaki
Mazak Optonics Corp., 682 N.W.2d 565, 569–70 (Minn. 2004).
We must also consider the “supporting evidence” as true.
Hardrives, Inc. v. City of LaCrosse, 240 N.W.2d 814, 816 (Minn.
1976).

26a
dangerous” condition. He also asserts that the
airbag system in the 1994 Crown Victoria was
defective and unreasonably dangerous in 2015
because that system was “defectively and/or
inadequately designed, tested, manufactured,
assembled and installed,” and had “inadequate or
absent warnings” or notices to users. He alleges that
the 1994 Crown Victoria was in “substantially the
same condition” in 2015 as when it was “designed
manufactured, furnished, sold and/or distributed”
and that defective nature was the proximate cause of
his injuries. He concludes that Ford knew or should
have known of the risks associated with the 1994
Crown Victoria prior to producing and marketing the
car, yet “willfully, wantonly, and recklessly
manufactured and sold” the 1994 Crown Victoria.
Bandemer’s negligence claim asserts that Ford
negligently “designed, developed, manufactured,
engineered, tested, marketed, inspected, distributed
and/or sold” the 1994 Crown Victoria. His claim for
breach of warranty alleges that Ford sold a “defective
airbag system” into the stream of commerce, and
because of the defects in the design and manufacture
and Ford’s alleged negligence, the airbag system
failed, thus breaching warranties of merchantability,
fitness for a particular purpose, and express
warranties.
It is undisputed that Ford dealerships in
Minnesota are independently owned and operated.
Ford asserted, and Bandemer does not dispute, that
no warranty repair work was conducted on the
Crown Victoria in Minnesota; indeed, we accept as
true Bandemer’s allegation that the car was in

27a
“substantially the same condition” in 2015 as when
Ford sold it in 1994.
In discovery, Ford admitted that it engages in
“nationally-based” advertising for Ford vehicles,
some of “which may reach the Minnesota market,”
and that it sends direct mail to consumers about
various Ford products and services, “which may
reach the Minnesota market.” Ford also admitted
that it provides “some creative content for” use in the
regional advertising directed and run by
independently owned and operated Ford dealerships.
Finally, Ford admitted that dealerships, including
Minnesota dealerships, “may access” Ford systems
that provide dealers with vehicle, technical service,
or service and repair information regarding Ford
vehicles, and Ford receives information regarding
vehicle performance from “across the United States,
including in Minnesota,” that may be used when
considering future designs.3

3

The court’s explanation of Ford’s discovery answers omits
this nationwide context, thus transforming answers regarding
future possibilities that have nothing to do with any Crown
Victoria, let alone the 1994 model, into Minnesota-specific
admissions. Nothing in Ford’s discovery answers admitted that
Ford “collects safety-related data in Minnesota” or that it used
data collected “through Ford dealerships in Minnesota . . . to
inform improvements to its designs and to train mechanics.” In
fact, Ford “denied” Bandemer’s Request for Admission that
asked Ford to admit that it “gathers from dealerships, including
Ford’s dealerships in Minnesota,” data that is used to “redesign
its products sold into Minnesota and elsewhere.” Ford admitted
that it “receives information regarding vehicle performance
[from] across the United States, including in Minnesota” and
that information “may be used by Ford as it considers future
designs.” (Emphasis added.) Taking the allegations of his

28a
III.
The record is entirely insufficient to permit
Minnesota to exercise specific personal jurisdiction
over Ford in this litigation.
Even taking the
allegations of Bandemer’s claims as true, all of the
wrongful and negligent conduct alleged by Bandemer
against Ford, including negligently designing and
warning about the Crown Victoria and placing the
vehicle into commerce, took place outside of
Minnesota. In fact, all of the relevant conduct that
frames the basis for Bandemer’s claims took place
well before the 1994 Crown Victoria was first
registered in Minnesota in 2011 by someone other
than the parties to this lawsuit. The 1994 Crown
Victoria’s airbag system was designed in Michigan
(not Minnesota). The vehicle was assembled in
Canada (not Minnesota), sold in North Dakota (not
Minnesota), brought into Minnesota by someone
other than Ford, and crashed by a third party into a
snow plow operated by another third party. Indeed,
all of Ford’s conduct that, according to Bandemer,
relates to his claims took place more than 20 years
before the accident, in states other than Minnesota.
There is simply no relationship between Ford’s
activities in Minnesota and Bandemer’s claims.
The court presents a broad and generalized view of
Ford’s nationwide activities, some of which naturally
occurred in or reached Minnesota, to conclude that
Ford’s Minnesota contacts relate to Bandemer’s
litigation.
But this is a question of specific
complaint as true, Bandemer’s claims focus on Ford’s conduct
with respect to the 1994 Crown Victoria, not possible
considerations regarding future designs.

29a
jurisdiction that we are deciding, and “general
connections with the forum are not enough.” BristolMyers Squibb, ___ U.S. at ___, 137 S. Ct. at 1781
(emphasis added). With discovery now in hand, the
abstractions in Bandemer’s allegations and
arguments must give way to facts. See Rilley v.
MoneyMutual, LLC, 884 N.W.2d 321, 334–35 (Minn.
2016) (“ ‘[I]f [the defendant’s] motion to dismiss is
supported by affidavits, the nonmoving party cannot
rely on general statements in his pleading.’ ”
(citation omitted)), cert. denied, 137 S. Ct. 1331
(2017).
Although Ford collected data from its independent
dealerships across the nation, including, possibly,
dealerships in Minnesota, and used that data to
inform future design work, this generality is legally
and factually irrelevant. See Bristol-Myers Squibb,
___ U.S. at ___, 137 S. Ct. at 1781 (explaining that it
was both insufficient and irrelevant that the
company “conducted research in California on
matters unrelated to” the drug at issue in deciding
whether Bristol-Myers Squibb was subject to specific
jurisdiction in California on nonresidents’ claims
regarding the drug).
The record fails to establish the relevance of Ford’s
data collection to Bandemer’s claims. Specifically, a
Ford design engineer testified, and his testimony
was uncontradicted, that the 1994 Crown Victoria’s
front passenger restraint system was designed in
Michigan. The engineer in no way indicated that
Minnesota data influenced the design, and
Bandemer offered no allegations, discovery
responses, or other evidence to establish a link
between any of Ford’s generally national activities

30a
and the conduct related to the design,
manufacturing, advertising, and sales of the Crown
Victoria that is the focus of his strict liability,
negligence, and tort claims.
At best, possibilities can be stated. Ford’s data
collection efforts may have captured information in
Minnesota that was incorporated into the design of
the 1994 Crown Victoria and its component parts,
which Bandemer claims were defective. But with
nothing more, “[i]t may have been” amounts to
speculation. McCool v. Davis, 197 N.W. 93, 96
(Minn. 1924). Conjecture and guess are not enough
to satisfy due process.
Nor do Ford’s current advertising activities relate
to Bandemer’s claims, which plainly focus on the
design, manufacturing, and sale of the 1994 Crown
Victoria and its restraint system. Bandemer did not
allege, nor is there reason to think, that his friend’s
father would have seen Crown Victoria advertising
at or around the time he purchased that vehicle from
a third party almost 20 years after Ford first sold it.
The court’s focus on Ford’s national advertisements
fails to address Ford’s fact-specific reply that no
Minnesota advertisements mentioned the Crown
Victoria. Cf. Rilley, 884 N.W.2d at 334 (stating that
a “purely national advertising campaign that does
not target Minnesota specifically cannot support a
finding of personal jurisdiction”). The same is true of
Ford’s Minnesota-specific marketing: the 2016 “Ford
Experience Tour” in Minnesota, the 1966 Ford
Mustang built for the Minnesota Vikings, the “Ford
Driving Skills for Life Free National Teen Driver
Training Camp” in Minnesota, and Ford’s
sponsorship of multiple athletic events in Minnesota

31a
are equally irrelevant to Bandemer’s strict liability,
negligence, and breach of warranty claims, which are
based on a car assembled in Canada, a restraint
system designed in Michigan, and Ford’s sale of that
car in North Dakota.
In this regard, Ford’s advertising is categorically
different from the internet advertising that
ultimately supported the exercise of personal
jurisdiction in Rilley. In that case, a payday lender
used nationwide television advertising, email
communications with Minnesota residents, and
internet advertisements to solicit applications from
Minnesota residents for allegedly illegal loans.
884 N.W.2d at 325–26.
The plaintiffs asserted,
among other claims, that the lender’s advertisements
violated Minnesota’s consumer protection laws. Id.
at 325.
The lender argued that the internet
advertisements were irrelevant to the personal
jurisdiction analysis because there was no evidence
that any of the plaintiffs had actually seen any of the
advertisements or that the advertisements caused
any of the plaintiffs to apply for a payday loan. Id. at
336.
We held that the advertisements were “sufficiently
‘related to’ the [plaintiffs’] cause of action because
they were a means by which [the lender] solicited
Minnesotans to apply for the allegedly illegal loans.”
Id. at 337 (emphasis added) (citation omitted).
Further, there was no question in Rilley that the
defendant’s advertisements related to the plaintiffs’
challenge to the defendant’s lending activities;
indeed, one of the claims asserted that the lender’s
“website
and
advertising
contained
misrepresentations
that
violated
Minnesota’s

32a
consumer protection statutes.” Id. at 325. Here, in
contrast, the relationship between Ford’s Minnesota
advertisements or marketing activities, generally,
and Bandemer’s claims is not only attenuated, at
best. Ford’s advertising is different in character
from the advertising at issue in Rilley. Put more
bluntly and directly, the court does not identify even
a single advertisement that references the Crown
Victoria, let alone anything about the design and
manufacture of that car or its airbag system.
The fact that Ford sold the Crown Victoria and
thousands of other cars to dealerships in Minnesota
cannot sustain the exercise of specific personal
jurisdiction. “[E]ven regularly occurring sales of a
product in a State do not justify the exercise of
jurisdiction over a claim unrelated to those sales.”
Goodyear, 564 U.S. at 930 n.6. There is good reason
for looking askance at sales numbers. It is the
connection between a defendant’s forum contacts and
a plaintiff’s claims, not the mere quantity of a
defendant’s forum contacts, that establishes specific
personal jurisdiction. As the Supreme Court has
stated, “[w]hat is needed—and what is missing
here—is a connection between the forum and the
specific claims at issue.” Bristol-Myers Squibb, ___
U.S. at ___, 137 S. Ct. at 1781. Accordingly, the fact
that Ford has “regularly occurring sales” of other
vehicles in Minnesota, years after it manufactured
and sold the 1994 Crown Victoria, cannot justify the
exercise of personal jurisdiction over Ford, requiring
it to defend against claims that are unrelated to
those sales.
The number of other vehicles that Ford sold in
Minnesota is irrelevant for another reason: the

33a
Supreme Court squarely rejected a similar quantityover-quality argument in Bristol-Myers Squibb,
___ U.S. at ___, 137 S. Ct. at 1781. The Bristol-Myers
Squibb Court described the California Supreme
Court’s “sliding scale” approach to personal
jurisdiction. Id. Under that approach, “the strength
of the requisite connection between the forum and
the specific claims at issue is relaxed if the defendant
has extensive forum contacts that are unrelated to
those claims.” Id. The Court rejected this approach
as a “loose and spurious form of general jurisdiction.”
Id.; see also Goodyear, 564 U.S. at 927, 931
(reversing the North Carolina Court of Appeals,
which had conducted a “stream-of-commerce analysis
[that] elided the essential difference between casespecific and all-purpose (general) jurisdiction”).4
Because all of Ford’s Minnesota contacts are
unrelated to Bandemer’s claims, the court here
4

I agree with the court that Goodyear is a general jurisdiction
case. I disagree that my reliance on Goodyear is therefore
unwarranted. The court fails to explain why “elid[ing] the
essential difference” between general jurisdiction and specific
jurisdiction is somehow less erroneous in a case that raises a
claim of specific jurisdiction than in a case that raises a claim of
general jurisdiction.
Nor is note six of Goodyear the only place where the Court
has rejected the approach that our court doubles-down on
today: that a defendant’s extensive, though suit-irrelevant,
forum contacts are sufficient to sustain specific jurisdiction.
See Bristol-Myers Squibb, ___ U.S. at ___, 137 S. Ct. at 1781
(rejecting an approach under which “the strength of the
requisite connection between the forum and the specific claims
at issue is relaxed if the defendant has extensive forum contacts
that are unrelated to those claims” as a “loose and spurious
form of general jurisdiction”).

34a
upholds a form of general jurisdiction over Ford no
less “loose and spurious.” The court essentially
performs a “dispute-blind” analysis of Ford’s contacts
with Minnesota, Tyrrell, ___ U.S. at ___, 137 S. Ct. at
1559 n.4, without requiring that those contacts—
Ford’s sales, data collection, and marketing—be
linked to Bandemer’s claims in any meaningful way.
The court’s analysis is thus neither “conduct-linked,”
Daimler, 571 U.S. at 122, nor “case-specific,”
Goodyear, 564 U.S. at 927. The court commits the
error of the North Carolina Court of Appeals:
“elid[ing] the essential difference” between specific
and general jurisdiction. Of course, the Supreme
Court reversed that decision. Id. at 931.
The court focuses on a different statement from
Bristol-Myers Squibb, that “there must be ‘an
affiliation between the forum and the underlying
controversy, principally, [an] activity or an
occurrence that takes place in the forum State . . . .’ ”
___ U.S. at ___, 137 S. Ct. at 1780. According to the
court, four facts show that this “occurrence . . . in the
forum” requirement is met: “[T]he car crash and the
injury to the plaintiff occurred in Minnesota, the car
was registered in Minnesota, the plaintiff and the
driving defendant are Minnesota residents, and the
plaintiff was treated for the injuries in Minnesota.”
Whatever other requirement these facts meet, they
do not establish that Ford’s Minnesota contacts
relate to Bandemer’s litigation. Ford cannot be haled
into a Minnesota court simply because an accident
involving a vehicle manufactured by Ford (in another
location) occurred here. See Walden, 571 U.S. at 290
(stating that “mere injury to a forum resident is not a
sufficient connection to the forum”); cf. World-Wide

35a
Volkswagen Corp. v. Woodson, 444 U.S. 286, 296
(1980) (stating that a “seller of chattels” does not
“appoint the chattel his agent for service of process”).
The “driving defendant” to which the court refers is
not Ford, and the fact that the fifth owner of the car
ended up registering it in Minnesota is equally
irrelevant. See Walden, 571 U.S. at 291 (“[I]t is the
defendant, not the plaintiff or third parties, who
must create contacts with the forum State.”).
The court’s reliance on the activities of persons
other than Ford—the injured plaintiff, the codefendant who was driving, and the third party who
brought the car into Minnesota—is fundamentally
flawed. The court ignores the principle that “[t]he
personal jurisdiction requirement recognizes and
protects an individual liberty interest” and that “[i]t
represents a restriction on judicial power . . . as a
matter of individual liberty.” Ins. Corp. of Ir.,
456 U.S. at 702. If the actions of someone other than
the individual with the protected liberty interest
may expose that individual to a forum’s judicial
power, then “individual liberty interest,” id., is at
most a misnomer.
In sum, because the due process right belongs to
the defendant, it is the defendant’s forum contacts
that matter—not the plaintiff’s contacts, not a codefendant’s contacts, not a third party’s contacts.
And when specific personal jurisdiction is asserted,
the contacts that the defendant makes with the
forum must relate to the plaintiff’s claims. Here,
even accepting the allegations and supporting
evidence as true, the court’s analysis does not
establish that Ford’s Minnesota contacts relate to
Bandemer’s claims. The reasoning of the court is

36a
therefore, at a minimum, inconsistent with
controlling Supreme Court jurisprudence and will
likely lead other litigants and courts astray. For
these reasons, I would reverse the court of appeals
and remand this case to the district court with
directions to dismiss Bandemer’s claims against Ford
for lack of specific personal jurisdiction.

GILDEA, Chief Justice (dissenting).
I join in the dissent of Justice Anderson.

37a
APPENDIX B
_________
STATE OF MINNESOTA
IN COURT OF APPEALS
_________
A17-1182
_________
ADAM BANDEMER,
Respondent,
v.
FORD MOTOR COMPANY,
Appellant,
ERIC HANSON, ET AL.,
_________

Defendants.

Filed April 23, 2018
Affirmed
Reyes, Judge
_________
Todd County District Court
File No. 77-CV-16-1025
_________
Kyle W. Farrar, Kaster, Lynch, Farrar & Ball,
L.L.P., Houston, Texas; and
Steven D. Lastovich, Steven D. Lastovich, Ltd.,
Baxter, Minnesota (for respondent)
Michael R. Carey, Scholastica N.S. Baker, Bowman
and Brooke, L.L.P., Minneapolis, Minnesota; and

38a
Sean Marotta (pro hac vice), Hogan Lovells US
L.L.P., Washington, D.C. (for appellant)
Considered and decided by Cleary, Chief Judge;
Reyes, Judge; and Jesson, Judge.
SYLLABUS
Minnesota’s five-factor test to determine whether
Minnesota has specific personal jurisdiction over a
nonresident is consistent with the principle
reiterated by the United States Supreme Court in
Bristol-Myers Squibb Co. v. Super. Ct., 137 S. Ct.
1773 (2017), that there must be a connection
between the forum and the specific claim at issue.
OPINION
REYES, Judge
In this appeal from the district court’s denial of
appellant Ford Motor Company’s (Ford) motion to
dismiss for lack of jurisdiction, Ford argues that
Minnesota does not have specific personal
jurisdiction over it because respondent Adam
Bandemer’s injury did not arise from Ford’s contacts
with Minnesota. We affirm.
FACTS
Bandemer, a Minnesota resident, sustained a brain
injury in Minnesota while riding in the front
passenger seat of a 1994 Ford Crown Victoria (the
Crown Victoria) in January 2015.
The Crown
Victoria was registered in Minnesota. Co-defendant
Eric Hanson, who was driving the Crown Victoria at
the time of the accident, rear-ended a snow plow.
The Crown Victoria went into a ditch, and the front

39a
passenger airbag failed to deploy. Bandemer’s injury
was treated in Minnesota. Bandemer sued Ford in
Todd County, claiming the Crown Victoria was
defectively designed, manufactured, and marketed.
Ford moved to dismiss for lack of personal
jurisdiction.
Ford argued that Minnesota lacks
specific personal jurisdiction over Ford and also does
not have consent-based jurisdiction in light of the
United States Supreme Court decision in Daimler
AG v. Bauman, 571 U.S. 117, 134 S. Ct. 746 (2014).1
In its discovery responses, Ford admitted that it
engaged in substantial marketing activities in
Minnesota. After conducting a hearing on Ford’s
motion to dismiss, the district court denied Ford’s
motion, finding that Ford consented to jurisdiction by
registering to do business in Minnesota under Minn.
Stat. § 303.13 (2016), and designating an agent in
Minnesota for service. This appeal follows.
ISSUES
Did the district court err in denying Ford’s motion
to dismiss for lack of personal jurisdiction?
ANALYSIS
Ford argues that the district court did not have
specific personal jurisdiction over it because the
Crown Victoria was not assembled, designed,
serviced, or originally sold by Ford in Minnesota. We
are not persuaded.

1

The parties stipulated that Minnesota did not have general
personal jurisdiction over Ford.

40a
“Jurisdiction is a question of law that [appellate
courts] review de novo.” In re Comm’r of Pub. Safety,
735 N.W.2d 706, 710 (Minn. 2007) (quotation
omitted). When a defendant challenges personal
jurisdiction, the plaintiff has the burden of proof to
make a prima facie showing that jurisdiction exists.
Juelich v. Yamazaki Mazak Optonics Corp.,
682 N.W.2d 565, 569-70 (Minn. 2004).
At the
pretrial stage, plaintiff’s allegations and supporting
evidence will be taken as true for the purposes of
determining whether personal jurisdiction exists. Id.
at 570; Hardrives, Inc. v. City of LaCrosse, 307 Minn.
290, 293, 240 N.W.2d 814, 816 (1976). Any doubts
about jurisdiction should be “resolved in favor of
retention of jurisdiction.” Hardrives, Inc., 307 Minn.
at 296, 250 N.W.2d at 818.
Minnesota courts can exercise personal jurisdiction
over a foreign corporation when Minnesota’s longarm statute authorizes it and the exercise of such
jurisdiction does not violate the due-process
requirement of the United States Constitution.
Domtar, Inc. v. Niagara Fire Ins. Co., 533 N.W.2d 25,
29 (Minn. 1995). “Because Minnesota’s long-arm
statute is coextensive with the constitutional limits
of due process, the inquiry necessarily focuses on the
personal-jurisdiction requirements of the [U.S.]
Constitution.” Lorix v. Crompton Corp., 680 N.W.2d
574, 577 (Minn. App. 2004). To satisfy this dueprocess requirement, a plaintiff must show that a
defendant purposefully established “minimum
contacts” with a forum state such that maintaining
jurisdiction there does not offend “traditional notions
of fair play and substantial justice.” Int’l Shoe Co. v.
Washington, 326 U.S. 310, 316, 66 S. Ct. 154, 158

41a
(1945); Marshall v. Inn of Madeline Island, 610
N.W.2d 670, 673-74 (Minn. App. 2000).
The
minimum-contacts requirement may be satisfied
through general personal jurisdiction or specific
personal jurisdiction. Domtar, 533 N.W.2d at 30.
General personal jurisdiction exists when a
nonresident defendant’s contacts with the forum
state are “continuous and systematic.” Id. In
contrast, specific personal jurisdiction exists “when
the defendant’s contacts with the forum state are
limited, yet connected with the plaintiff’s claim such
that the claim arises out of or relates to the
defendant’s contacts with the forum.” Id. (emphasis
added).
Minnesota courts use a five-factor test to determine
whether the exercise of personal jurisdiction over a
foreign defendant satisfies federal due-process
requirements. Juelich, 682 N.W.2d at 570. The test
requires the assessment of: (1) the quantity of
contacts with the forum state; (2) the nature and
quality of the contacts; (3) the connection of the
cause of action with the contacts; (4) the interest of
the state in providing a forum; and (5) the
convenience of the parties. Id. “The first three
factors determine whether minimum contacts exist
and the last two factors determine whether the
exercise of jurisdiction is reasonable according to
traditional notions of fair play and substantial
justice.” Id.
Here, Ford concedes four of the factors and
challenges only the third factor, arguing that
Bandemer’s injury has no connection with Ford’s
contacts with Minnesota because the Crown Victoria
was not assembled, designed, serviced, or originally

42a
sold in Minnesota. Bandemer alleges that Ford’s
defectively designed, manufactured, and marketed
car caused his injury. In Minnesota, marketing that
specifically targets Minnesota residents and is
related to the cause of action can satisfy the third
factor. See Rilley v. MoneyMutual, LLC, 884 N.W.2d
321, 337-38 (Minn. 2016). Therefore, the key issue
here is whether Ford’s marketing activities
specifically targeted Minnesota residents and
whether they were related to Bandemer’s injury.
In Rilley, the Minnesota Supreme Court held that a
defendant’s email solicitation and Google AdWords
advertising campaign, both specifically targeting
Minnesota residents, were sufficient to establish
minimum contacts. Id. Indeed, the supreme court
stated that even solicitation emails “alone are
sufficient to support a finding of personal
jurisdiction.” Id. at 337; see also Marquette Nat’l
Bank of Minneapolis v. Norris, 270 N.W.2d 290, 292
(Minn. 1978) (lack of physical presence in state by
nonresident appellants was of no consequence when
transaction accomplished by mail and telephone).
The supreme court further noted that, because
geographic destination is more readily discernible in
direct mail than in email, a connection between the
sender of the mail and the forum would not be
merely “random, fortuitous, or attenuated.” Rilley,
884 N.W.2d at 330-31.
Here, Ford sent direct mail to consumers in
Minnesota. 2 Ford admitted that it also provided
2

Ford also sponsors many athletic, racing, and educational
teams and events in Minnesota. For example, Ford licensed its
1966 Ford Mustang to be built as a model car for the Minnesota

43a
regional advertising in Minnesota directed by its
Ford Dealer Advertising Funds (FADFs), and
provided the FADFs with “creative content.” These
contacts were not “random, fortuitous, or attenuated”
but rather constituted “intertwined” contacts with
both Minnesota residents and the state of Minnesota.
See id. at 329. Through these marketing activities,
Ford has established a “substantial connection
between the defendant, the forum, and the litigation,
such that [it] purposefully availed [itself] of the
forum and reasonably anticipated being haled into
court” in Minnesota. See id. at 332 (quotation
omitted).
Ford also argues that its marketing activities in
Minnesota were not related to Bandemer’s injury
because the advertisement in Minnesota did not
specifically promote the Crown Victoria.
This
argument lacks merit.
In Rilley, the appellant raised a similar argument
that respondents provided no evidence that
respondents saw the Google Ads that caused them to
apply for a loan from defendant. Id. at 336. The
Minnesota Supreme Court rejected this argument,
stating that “[a]lthough at this early stage of the
litigation there is no evidence that the Google Ads
actually caused any of the claims, the Google Ads are
sufficiently related to the claims of respondents to
survive a motion to dismiss.” Id. at 337.

Vikings. And Ford sponsored events such as the 2016 “Ford
Experience Tour” and the “Ford Driving Skills for Life Free
National Teen Driver Training Camp” in Minnesota.

44a
Ford’s marketing activities were designed to
promote sales of Ford’s vehicles to Minnesota
consumers. The Crown Victoria is one of Ford’s
vehicles and was one of many products that Ford
tried to promote through its marketing campaign in
Minnesota. Bandemer’s injury was caused by a
Crown Victoria sold to a Minnesota resident.
Moreover, Bandemer alleged that Ford’s marketing
included safety assurances and that Ford collected
vehicle data from Minnesota drivers in its Minnesota
service centers, which housed its design-development
process. As in Rilley, Bandemer has made a prima
facie showing that Ford’s marketing activities are
sufficiently related to the cause of action to survive
Ford’s motion to dismiss.
Finally, Ford argues that, under the United States
Supreme Court’s recent decisions in Bristol-Myers
Squibb Co. v. Super. Ct., 137 S. Ct. 1773 (2017), and
Walden v. Fiore, 134 S. Ct. 1115 (2014), Minnesota
does not have specific personal jurisdiction over Ford
because Ford’s relevant conduct occurred entirely
out-of-state. We are not persuaded.
Both Bristol-Myers and Walden held that there
must be “a connection between the forum and the
specific claims at issue.” Bristol-Myers, 137 S. Ct. at
1776 (citing Walden, 134 S. Ct. at 1115). The
Supreme Court noted that courts must consider a
variety of interests to determine whether specific
personal jurisdiction exists, including an “activity or
occurrence that takes place in the forum [s]tate[,]” a
connection between the underlying controversy and
the forum, the interests of the forum state, and
convenience of the plaintiff. Bristol-Myers, 137 S. Ct.
at 1780-81. These factors reflect long-established

45a
Supreme Court precedent and mirror Minnesota’s
five-factor test. See Rilley, 884 N.W.2d at 328 (“This
five-factor test is simply a means for evaluating the
same key principles of personal jurisdiction
established by the United States Supreme
Court . . . .”).
Minnesota’s five-factor test to determine whether it
has specific personal jurisdiction over Ford is
consistent with Bristol-Myers and Walden and their
application. In Bristol-Myers, the Supreme Court
held that the plaintiff’s cause of action was not
connected to the defendant’s contacts with California
when the nonresident plaintiffs sued the defendant
for the harm they sustained outside of California.
137 S. Ct. at 1782. The nonresident plaintiffs
obtained the prescription medication, sustained
injuries, and received treatment for their injuries
outside of California. Id. Notably, the defendant did
not contest that California had specific personal
jurisdiction over California residents based on the
defendant’s “assertedly misleading marketing and
promotion of that product.” Id. at 1779.
In Walden, a Nevada resident sued a police officer
in the United States District Court for the District of
Nevada after the officer committed allegedly tortious
conduct in a Georgia airport. 134 S. Ct. at 1119. The
Supreme Court held that Nevada lacked specific
personal jurisdiction over the officer because no part
of his alleged tortious conduct occurred in Nevada
and he “formed no jurisdictionally relevant contacts
with Nevada.” Id. at 1124.
This case involves a Minnesota resident who was
injured in Minnesota while riding in a vehicle

46a
registered in Minnesota, and whose injuries were
treated in Minnesota. In addition, as previously
noted, Ford had substantial contacts with Minnesota
through its marketing activities. Ford’s contacts
with Minnesota were sufficiently related to the cause
of action and satisfy the third factor.
Accordingly, the third factor favors Minnesota’s
exercise of specific personal jurisdiction over Ford.
Because Bandemer’s allegations and supporting
evidence are taken as true during the pretrial stage,
he has successfully made a prima facie showing that
the district court had personal jurisdiction over Ford.
Therefore, the district court did not err in denying
Ford’s motion to dismiss.3
DECISION
The district court did not err in denying Ford’s
motion to dismiss for lack of personal jurisdiction.
Bandemer is a Minnesota resident who sustained an
injury in Minnesota while riding in the passenger
seat of a Minnesota-registered Ford vehicle and who
subsequently received medical treatment for his
injury in Minnesota. Ford purposefully availed itself
of the benefits and protections of Minnesota law
because it initiated contacts with Minnesota and
actively sought out business through marketing in
the state.
As such, it should have reasonably
anticipated being haled into court in Minnesota, and
we therefore affirm.

3

Because we affirm on the ground of specific personal
jurisdiction, we need not decide whether Minnesota has
consent-based jurisdiction over Ford.

47a
Affirmed.

48a
APPENDIX C
_________
STATE OF MINNESOTA
IN DISTRICT COURT, COUNTY OF TODD
SEVENTH JUDICIAL DISTRICT
_________
Court File No. 77-CV-16-1025
_________
ADAM BANDEMER,
Plaintiff,
v.
FORD MOTOR COMPANY, ERIC HANSON, GREG HANSON,
Defendants.
_________
ORDER
This matter came on for hearing before District
Court Judge Douglas P. Anderson on February 3,
2017 pursuant to the Plaintiff’s City motion for
remand and Defendant Ford Motor Company’s
motion to dismiss.
Plaintiff Adam Bandemer
appeared with his attorneys, Kyle Farrar and Steven
Lastovich. Attorney Michael Carey appeared on
behalf of Ford Motor Company. Attorneys R.J.
Newcome and Michael Kiedrowski appeared on
behalf of Defendants Eric Hanson and Greg Hanson.
Based on all the files, records and proceedings
herein,
IT IS HEREBY ORDERED:
1. Defendant Ford Motor Company’s motion to
dismiss due to improper service is DENIED.

49a
2. Defendant Ford Motor Company’s motion to
dismiss for lack of jurisdiction is DENIED.
3. Plaintiff Adam Bandemer’s motion to remand
is DENIED.
4. The attached Memorandum is made a part of
this Order.
Dated May 25, 2017

BY THE COURT:
/s/ Douglas P. Anderson
Douglas P. Anderson
Judge of District Court

JUDGMENT
I hereby certify that the foregoing constitutes the
Judgment of this Court.
TODD COUNTY
Court Administrator
Dated: 5-26-17

By: /s/ Patti Johnson
Deputy

50a
MEMORADUM
Service of Process and Venue
Plaintiff commenced his lawsuit against Ford
Motor Company by service upon C.T. Corporation
Systems Inc., the registered agent for service of
process, by certified mail. This is improper service
and the rules of procedure require personal service.
(See Minn. R. Civ. P. 4.03(c)). In its answer, Ford
Motor Company alleged defective service. Then, on
January 10, 2017, Plaintiff served the summons and
complaint on Ford Motor Company by process server
delivering a copy of the summons and complaint to
its registered agent for service, C.T. Corporation
Systems Inc.
However, in September of 2016, after it had been
served inadequately, Ford Motor Company made a
motion under Minnesota Statute Section 542.01, for
voluntary transfer of venue, to Todd County,
Minnesota, the location where Defendants Hanson
reside.
This motion was granted by Hennepin
County District Court by order dated October 17,
2016.
The summons and complaint that was served upon
Ford Motor Company in January 2017 was the same
summons and complaint that had been served by
certified mail in September 2016, and both were
dated September 2, 2016. Of course, when proper
service was achieved in January 2017, venue of the
case had already been transferred from Hennepin
County to Todd County by Hennepin County District
Court Order.

51a
In Todd County District Court on February 2, 2017,
Plaintiff made a motion to remand the matter to
Hennepin County District Court and Ford Motor
Company made a motion to dismiss the complaint for
inadequate service of process. The commencement of
the lawsuit by certified mail in September of 2016
was ineffective as to Ford Motor Company. It was
effective, however, when personal service was
achieved on C.T. Corporation Systems Inc. on
January 10, 2017.
Defendant Ford Motor Company’s motion to
dismiss the action commencing in September of 2016
is granted.
However, the action was properly
commenced against Ford Motor Company in January
of 2017. The Court intends to adopt the reasoning
the Hennepin County District Court in its order of
October 17, 2016 in regards to venue. Additionally,
at the hearing in Long Prairie, attorneys for the
Hansons stated that they wanted the matter venued
in Todd County, not Hennepin County. Plaintiff had
asserted that the Hanson’s wanted the matter tried
in Hennepin County, but the attorney denied this as
of the date of the hearing in Todd County.
Plaintiff sustained significant medical injuries and
most of the treating physicians reside in the
metropolitan area. This is the principle reason that
Plaintiff seeks to have the matter tried in Hennepin
County, for the convenience of the expert witnesses.
However, no part of the cause of action arose in
Hennepin County.
A case where there are
significant injuries may require treatment at a
specialized medical facility such as Mayo Clinic or a
metropolitan hospital. Plaintiff’s argument would be
that venue for those actions should be in the place

52a
where the medical treatment was received, not
where the accident occurred. The Court rejects this
position.
The venue statute provides that the
lawsuit should be commenced where the cause of
action arose or where some or all of the defendants
reside. None of the parties, including Plaintiff,
reside in Hennepin County.
This analysis by the court is made to encourage the
parties to stipulate to a change of venue of the action
which was properly commenced in January 2017 as
to Ford Motor Company. If not, the court will expect
a motion, pursuant to statute, seeking to transfer
venue from Hennepin County to Todd County. Since
the lawsuit was commenced, there have been no
change in circumstances that favor Plaintiff’s
position.
In fact, the attorneys for Defendants
Hanson asserted that they oppose venue in
Hennepin County. In its reply memorandum on the
venue issue, Plaintiff asserted that the Hansons did
not support a transfer to Todd County and preferred
that the case be returned to Hennepin County. (Pl.’s
Reply in Supp. of Mot. to Remand Venue at 4).
Jurisdiction
Ford moved to dismiss for lack of personal
jurisdiction claiming that under controlling Supreme
Court precedent, exercise of personal jurisdiction
over it would violate Due Process. First, Ford claims
that this court lacks general personal jurisdiction.
Second, Ford claims that this court lacks specific
personal jurisdiction.
Bandemer responded claiming that Ford consented
to general personal jurisdiction by registering to do

53a
business in Minnesota. Next, Bandemer argues that
regardless of consent, this court has specific personal
jurisdiction.
First, the parties stipulated that Minnesota is not a
general jurisdiction state. Ford argues that the Todd
County District Court does not have specific
jurisdiction over Ford either. For reasons stated
hereafter, the court finds that Todd County District
Court does have jurisdiction by virtue of consent to
jurisdiction.
Consent is the other traditional basis of
jurisdiction, existing independently of long-arm
statutes.
Personal jurisdiction, unlike subjectmatter jurisdiction, is primarily concerned with
fairness to individual parties. A defendant may
voluntarily consent or submit to the jurisdiction of a
court which otherwise would not have jurisdiction
over it. See Insurance Corp. of Ireland, Ltd. v.
Compagnie des Bauxites de Guinee, 456 U.S. 694,
102 S. Ct. 2099, 72 L.Ed.2d 492 (1982). One of the
most solidly established ways of giving such consent
is to designate an agent for service of process within
the State. Knowlton v. Allied Van Lines, Inc.,
900 F.2d 1196, 1199 (8th Cir. 1990)
Although the jurisprudence of personal jurisdiction
has centered for the past few decades on the
constitutional minimum contacts test of “fair play
and substantial justice,” consent remains a viable
method of obtaining personal jurisdiction over a
nonresident defendant. With consent, resort to the
constitutional test for personal jurisdiction is not
required because the defendant obviously can
“reasonably anticipate being haled into court” after

54a
consenting to jurisdiction.
See World-Wide
Volkswagen Corp. v. Woodson, 444 U.S. 286, 297, 100
S. Ct. 559, 567, 62 L.Ed.2d 490 (1980). Similarly,
resort to analysis under Minnesota’s long arm
statute is unnecessary because the long-arm
provision addresses extraterritorial service of
process. See Hunt v. Nevada State Bank, 285 Minn.
77, 96, 172 N.W.2d 292, 304 (1969), cert. denied sub
nom., Burke v. Hunt, 397 U.S. 1010, 90 S. Ct. 1239,
25 L.Ed.2d 423 (1970). Once the defendant has
appointed an agent for service of process located in
the state, resort to extraterritorial service is
unnecessary.
Accordingly, personal jurisdiction
pursuant to the consent of the defendant does not
invoke constitutional or long arm statutory analysis.
Rykoff-Sexton, Inc. v. Am. Appraisal Assocs., Inc.,
469 N.W.2d 88, 90 (Minn. 1991)
Minnesota courts have long construed valid service
of process as a means of acquiring personal
jurisdiction
over
the
individual
defendant.
Jasperson v. Jacobson, 27 N.W.2d 788, 793, 224
Minn. 76, 82 (Minn.1947); see also Restatement
(Second) of Conflicts § 44 comments a, b (1971). The
same is true for nonresident corporate defendants.
Knowlton, 900 F.2d at 1200, (noting appointment of
agent for service of process is a “traditionally
recognized and well-accepted species of general
consent” to personal jurisdiction). Because Ford
Motor Company consented to service of process by
registering an agent, it has consented to personal
jurisdiction. See Rykoff-Sexton, Inc., 469 N.W.2d at
90.
Other states have limited personal jurisdiction
based on transacting business in the state to claims

55a
arising out of contacts with the forum. See, e.g.,
Ill.Ann.Stat. ch. 110, ¶ 2-209 (Smith-Hurd 1983). In
contrast, Minnesota’s statutory scheme for express
consent to service extends to all causes of action, not
just those arising out of contacts with Minnesota.
Minnesota Statutes § 303.13 (1990); see also
Minnesota Statutes § 543.19, subd. 4 (1990) (longarm statute requiring claim to arise out of forum
contacts does not limit or affect right to serve process
in any other manner provided by law). As the
Knowlton court observed, the legislature knows how
to limit consensual service of process to claims
arising out of forum contacts, and apparently chose
not to do so for claims against registered
corporations in Minnesota. 900 F.2d at 1199. It is
the legislature’s province to assess the burden on the
state’s business climate of the assertion of
jurisdiction by Minnesota courts. The Minnesota
supreme court has found no constitutional defect in
the assertion of jurisdiction based on consent to
service of process. Rykoff-Sexton, Inc., 469 N.W.2d at
90-91.
According to the 8th Circuit in Knowlton,
The whole purpose of requiring designation of
an agent for service is to make a nonresident
suable in the local courts. The effect of such a
designation can be limited to claims arising
out of in-state activities, and some statutes are
so limited, but the Minnesota law contains no
such limitation. Section 303.13, Subdivision
1(1), provides simply that “[a] foreign
corporation shall be subject to service of
process . . . [b]y service on its registered
agent. . . .” There are no words of limitation to

56a
indicate that this type of service is limited to
claims arising out of activities within the
state.
We conclude that appointment of an agent for
service of process under § 303.10 gives consent
to the jurisdiction of Minnesota courts for any
cause of action, whether or not arising out of
activities within the state. Such consent is a
valid basis of personal jurisdiction, and resort
to minimum-contacts or due-process analysis
to justify the jurisdiction is unnecessary. See
Bauxites, 456 U.S. at 703, 102 S. Ct. at 2104.
Appointment of a registered agent for service
is not one of the specific types of consent listed
by the Supreme Court in the cited case, but it
is nevertheless a traditionally recognized and
well-accepted species of general consent,
possibly omitted from the Supreme Court’s list
because it is of such long standing as to be
taken for granted. We hold, in short, that the
United States District Court for the District of
Minnesota did, by virtue of consent, have
jurisdiction over the person of the defendant
Allied Van Lines, Inc.
900 F.2d at 1199-1200.
In conclusion, Ford has consented by registering to
do business in Minnesota under Minnesota Statutes
§ 303 and designating an agent in Minnesota for
service.
Miscellaneous
The court now comments on Daimler AG v.
Bauman, 134 S. Ct. 746 (2014) and Goodyear Dunlop

57a
Tires Operations, S.A. v. Brown, 131 S. Ct. 2846
(2011), the cases cited by Ford in support of its
motion.
Daimler is not on point. That case involved
Argentinian plaintiffs suing a German Corporation
for acts that occurred in Argentina. None of the
events or contacts occurred in California. Daimler,
134 S. Ct. at 746. In Bandemer’s case the allegedly
defective automobile was garaged, operated, and
insured in Minnesota at the time of the accident.
Jurisdiction in Minnesota is consistent with
Minnesota Statutes § 542.059.
The Goodyear case is also distinguishable. There,
two North Carolina residents were killed in a bus
accident that occurred in France. The suit was
brought in North Carolina alleging that the tires on
the bus were defective. The tires were manufactured
in Europe and Goodyear was not registered to do
business in North Carolina. Again, North Carolina
had no factual basis for the claims giving rise to the
suit except that the decedents lived in North
Carolina. See Goodyear, 131 S. Ct. at 2846.
As cited in Goodyear, Bandemer presents a more
typical commerce situation where a non-resident
(Ford), acting outside the forum, places a product
into commerce that ultimately causes harm inside
the forum. Id. at 2855.
Conclusion
Plaintiff Bandemer cannot bifurcate his cause of
action. He has sued the owner/driver for negligence
and Ford Motor Company under a products liability
theory for injuries sustained while a passenger in the

58a
Hanson car. If Ford’s position is sustained, anytime
a plaintiff has a dual claim of negligence against a
third party and products liability against Ford, that
suit would have to be brought in either Michigan or
Delaware. This disregards the rights of the codefendants set forth in Minnesota Statutes
§ 542.095.
As law schools teach, Delaware has favorable
corporate laws, and thousands of businesses
incorporate under Delaware law. If extended to its
logical conclusion, Delaware would be overwhelmed
with lawsuits that have no factual basis for a suit in
Delaware court except that the corporation was
legally incorporated in Delaware. To force Hansons
to defend suit in Michigan or Delaware would be
unreasonable. It creates a “Sophie’s choice” for
plaintiff. Under Ford’s position, Bandemer would
either have to commence his action in either
Michigan or Delaware, or waive his product liability
claim against Ford so that the matter could be
venued in Minnesota. This is an unreasonable result
and contrary to the interests of justice.
D.P.A.
/s/ D.P.A.

